No.

 

IN THE SUPREME COURT OF THE UNITED STATES

ROSA CINGARI,
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.

 

On Petition for a Writ of Certiorari
to the United States Court of Appeals
For the Eleventh Circuit

MOTION FOR LEAVE TO PROCEED JN FORMA PAUPERIS

The Petitioner, Rosa Cingari, asks leave to file the enclosed Petition for Writ
of Certiorari without prepayment of costs and to proceed in forma pauperis in
accordance with Supreme Court Rule 39. The filing of this petition is a continuation
of the representation of the Petitioner under a Criminal Justice Act (18 U.S.C. ยง
3006A) appointment of undersigned counsel, by the United States District Court for
the Middle District of Florida.

WHEREFORE, Petitioner Rosa Cingari prays for leave to proceed in forma

pauperis.
Respectfully submitted,

a Ye

Dane K. Chase, Esquire
Florida Bar Number: 0076448
